WAIVER

Supreme Court, U.S.
FILED

AUG 18 2020
OFFICE OF THE CLERK

SUPREME COURT OF THE UNITED STATES
Supreme Court Case No 20-85
Shirley Dimps

v.

Taconic Correctional Facility, et al.

(Petitioner)

(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please check the appropriate boxes:
Please enter my appearance as Counsel of Record for all respondents.

r2 There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):
Civil Service Employees Association, Inc. (CSEA)

I am a member of the Bar of the Supreme Court of the United States.
4i I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar me
Signature
8/18/2

Date•

(Type or print) Name

Leslie C. Perrin
Mr.

Ms.

❑

Mrs.

❑ Miss

Civil Service Employees Association (Legal Department)

Firm

143 Washington Avenue
Address
City & State Albany New York
Phone

12210
Zip
leslie.perrin@cseainc.org

(518) 257-1443
Email

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S,
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED

ilkaiVED

CC:

Shirley Dimps, Pro Se

AUG 2 6 2020
FFICE OF THE CLERK
SUPREME COURT, U.S.

